NO
IN THp
SUPREME COURT OF THE UNITED STATES

AlpxaNrnn P. BEBRIS,
Petitioner,
V.

UNrrnn Srarps op AMnnrcA,
Respondent.

PsrrrroN pon Wnrr op Cnnttonanl
To rHE UNrron Sratps Counr op Appnam
FoR THE SsvpNrH CrRculr
CERTIFICATE OF SERVICE
The undersigned, being counsel of record for Petitioner in the
above matter, hereby certifies that on October 13,2012, three copies of

Petitioner's Petition for Writ of Certiorari were served pursuant to
Supreme Court RuIe 29.5 by First Class Mail, postage prepaid, upon

the Solicitor General of the United States, Room 5614, Department of
Justice, 950 Pennsylvania Avenue, Washington, DC 20530-0001 and
upon Attorney Sopen B. Shah, Perkins Coie LLP, 1 East Main Street

Suite 201, Madison, WI 53703-5118

Dated this 12th day of October, 202I.

Respectfully submitted,

GIMBEL, RE

GUERIN & BROWN LLP

By:

OND
Counsel of
Defendant'Appellant'
Petitioner, Alexander P. Bebris

POST OFFICE ADDRESS:

Two Plaza East, Suite 1170
330 East Kilbourn Avenue
Milwaukee, Wisconsin 53202
Telephone: 414127 1'1440

2

